1

CERTIFICATE OF WORD COUNT
I certify that according to the computer
program used to prepare this brief, the Petitioner’s
Petition for Writ of Certiorai'i contains 5438 words,
not including the cover, the Question Presented
Tables of Contents and Authorities, Appendices,
this certificate and the signature block.
I declare under penalty of perjury under the
laws of the State of California that the foregoing is
true and correct.
Dated- September 21, 2020.

—

^Jozlyn Thomas

